Supreme Court, U.S.
FILED

NOV 2 h 2020

-6510

nPFir.F OF THE CLERK

No.

IN THE
SUPREME COURT OF THE UNITED STATES

LAWRENCE W. FORD, PETITIONER

V.

ANITA L. BUDDE, RESPONDENT

ON PETITION FOR WRIT OF CERTIORARI TO THE COURT OF APPEALS OF
NEVADA

PETITION FOR WRIT OF CERTIORARI

Lawrence W. Ford
P. O. Box 358
Fairfield, CA 94533
(707) 365-3636 (Mess.)
lawisnotblind@comcast.net
Attorney for Petitioner
IN PRO SE

Natalie J. Reed, Esq.
Reed Law Offices, PLLC
611 Forest Street
Reno, Nevada 89509
Therese M. Shanks, Esq.
Robison, Sharp, Sullivan & Brust
71 Washington Street
Reno, Nevada 89503
Attorneys for Respondent

V

1
2

3 - QUESTIONS PRESENTED FOR REVIEW
In United States v. Olano, this Court held that, under the fourth

3
4

prong of plain error review, “[t]he Court of Appeals should correct a plain

5

forfeited error affecting substantial rights if the error ‘seriously affect[s]

6

the fairness, integrity, or public reputation of judicial proceedings.” 507

7

U.S. 725, 736 (1993). To meet that standard, is it necessary, as the Fifth
8
9

Circuit Court of Appeals required, that the error be one that “would shock

10

the conscience of the common man, serve as a powerful indictment against

li

our system of justice, or seriously call into question the competence or

12

integrity of the district judge?” In this case it is the Appellate court as
13
14
15
16

well that comes into question, citing cases that argues against itself.
This is a case of first impression that not only raises an important,
unique, and interesting question affecting not only the integrity of our

17
18
19
20

judicial system, but also implicates the Due Process provisions of the Fifth
and Fourteenth amendments to the U.S. Constitution.
Questions:

21

1. In a standard of review as used by appellate courts, to review
22
23

discretionary decisions of lower trial courts, the appellate courts will find

24

that the trial court abused its discretion if the decision was the result of a

25

mischaracterization of the trial court record, was made in plain error, and
26
27

the erroneous mischaracterized facts are then relied upon in its findings

28

and conclusions. However. what is the abuse of discretion standard
PETITION FOR WRIT OF CERTIORARI

i

1
2

used for review, in a case where the appellate court itself, upon reviewing
a trial court’s record, picks out an incorrect material fact, involving an

3
4

important triggering date in the trial court’s record, a date that was never

5

raised or briefed on appeal, then erroneously places this out of order

6

triggering date in and at a point in the record six (6) months later, totally

7

ignoring upon advisement, the true triggering date, and then, in reliance
8
9
10
li

upon this incorrect triggering date, mistakenly imputes the incorrect
triggering date into its findings and conclusions, thereby creating an error
of such a nature, that it impacts every aspect of the case, and to leave it

12
13
14
15
16

uncorrected would result in damage to the integrity, reputation, and
fairness of the judicial process?
2. What is the abuse of discretion standard used for review, where
the appellate court ignores its own well-established directions and

17
18

guidelines regarding rules of professional conduct, and where a district

19

court judge’s impartiality might reasonably be questioned where the trial

20

court deliberately ignores a wholly briefed and crucial judicial misconduct

21

matter, where counsels are more likely to obfuscate the court with fraud
22
23
24
25

than enlighten the court?
3. What is the abuse of discretion standard used for review, where
the appellate court ignores its own well established directions and

26
27
28

guidelines regarding a the trial court which rendered its decisions based
upon facts that were not supported by the record, and the subsequent
PETITION FOR WRIT OF CERTIORARI

11

V

1
2

decision resulted in plain error, of the kind that a reviewing court
supposedly and normally seeks to avoid?

3

4
5

6

This case also shows that the reviewing Nevada appellate court, has disregarded
the clearly displayed logic of its own prior decisions, its State Supreme Court’s logic.
and the well-settled logic of this U.S. Supreme Court. In a justice system that is

7
8
9
10
11

designed to protect against cases fraught with fraud and unjust judicial district
courts, and where all cases that are reviewed, are reportedly done so, based upon
the reviewable facts of the trial court’s record, this court’s answer to the question(s)
presented will have enormous national impact. The Nevada Supreme Court, that

12
13

state’s court of last resort, in its order denying petition for review, causes the

14

Nevada Appellate Court’s opinion to raise this important question of federal and

15

state law, and or judicial logic, which has not been, but should be, settled by this

16

supervisory court. Absent this Supreme Court’s review, the dangerous question
17
18

that would circulate would be, who would trust or should trust our judicial system?

19

[T]he belief and fairness in our judicial system, by the common man,

20

especially when he stands alone before a court in an In Pro Se status, is not only

21
22

the lifeblood of our legal system, it is the utopia of truth we all seek to rest with.
PARTIES TO THE PROCEEDING

23

24
25

Petitioner is Lawrence W. Ford, In Pro Se, and a citizen of the United States
of America. Respondent is Anita L. Budde, a citizen of the United States of

26
27

28

America.
III
PETITION FOR WRIT OF CERTIORARI

iii

11

TABLE OF CONTENTS

1
2

QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDING

m

5

TABLE OF CONTENTS

IV

6

TABLE OF AUTHORITIES

vi

3
4

7

1

DIRECTLY RELATED PROCEEDINGS

8
9
10
li

2

STATEMENT OF JURISDICTION

CONSTITUTIONAL AND STATUTORY AUTHORITY INVOLVED......2
3

STATEMENT OF THE CASE

12

3

A. Brief Background
13
14

1. This starts as a Nevada Probate matter

3

15

2. The conflict of interest, misconduct, fraud comes to light

5

16

B. District Court Proceedings

6

C. Appellate Court Proceedings............

7

19

D. Nevada Supreme Court Proceedings

9

20

REASONS FOR GRANTING THE PETITION

9

17
18

21

A. Discussion as to question one, plain error of court inserted date.... 9

22
23

A-l. The Appellate Court argues point 1, for the petitioner

16,17

24

B. Discussion as to question two, conflict of interest, et al...

19

25

B-l. The Appellate Court argues point 2, for the petitioner

23

26

C. Discussion as to question three, timely document not reviewed... 28

27

28

36

CONCLUSION
PETITION FOR WRIT OF CERTIORARI

iv

1
2

APPENDIX
A. Plaintiffs In-Camera Submission

App- 1

B. Substitution of Counsel

App- 4

5

C. Report of Administration,

App- 7

6

D. Plaintiffs Reply and Objection (filed upside down)

3
4

7

App- 28

E. Personal Rep’s Reply to Objection D above

App- 47

F. Order Approving Report of Administration

App- 57

10

G. Plaintiffs Motion to Relieve and Sanction Counsel,

App-59

li

H. Personal Rep’s Opposition to Motion to Relieve et al....

8
9

App- 86

12

App-92

I. Plaintiffs Reply to Personal Rep’s Opposition to Motion
13
14

J. Order Denying Plaintiffs Motion to Relieve/Sanction Counsel. App-104

15

K. Motion for New Trial etc., NRCP 59, 60, 61, 62

App-107

L. Personal Rep’s Opposition to Motion for New Trial etc.,

App-124

M. Plaintiffs Reply to Opposition to Motion for New Trial

App-130

19

N. Order Denying Plaintiffs Motion for New Trial............

.App-138

20

O. Transcript of November 9, 2018 Hearing on Motions....

APP-141

P. Transcript of November 9 (12), 2018 Ruling of the Court

.App-148

Q. Appellate Court’s Order of Affirmance............................

App-158

24

R. Atmellant’s (Petitioner’s! Petition For Rehearing

App-165

25

S. Order Grant Rehear in Part. Deny in Part & Affirm’g ....App-178

16
17
18

21
22
23

26

T. Nev. Supreme Ct’s Order Denying Petition for Review... App-181
27
28
PETITION FOR WRIT OF CERTIORARI

V

l
2

TABLE OF AUTHORITIES
Cases

3

Brookshire Grocery Company v. Cleon Morgan, Sr,
2018Ark. 62, 539 S.W.3d 577)................................

10

Bonnell v. Lawrence, 128 Nev. 394, 400, 282 P.3d 712, 715 (2012)

17

Carlson v. Carlson 108 Nev. 358, 832 P.2d 380 (1992)

12

City of Whitewater v. Baker, 99 Wis.2d 449,
299 N.W.2d 584, 586 (Ct. App. 1980).............

23

Crosby v. Bradstreet Co., 312 F.2d 483 (2nd Cir.) cert, denied,
373 U.S. 911, 83 S.Ct. 1300, 10 L.Ed.2d 412 (1963)..........................

13

12

Ennis v. Ennis, 88 Wis. 2d 82, 276 N.W.2d 341, 348 (Ct. App. 1979)

23

13

Ennis v. Ennis, 98 ,276 N.W.2d 347

23

Ennis v. Ennis, 99, 276 N.W.2d 348

23

Epstein v. Epstein, 113 Nev. 1401, 1405, 950 P2d 771, 773 (1997)

11

17

Erickson v. Pardus, 551 U.S. 89, 94 (2007)

11

18

Estelle v. Gamble, 429 U.S. 97, 106 (1976)

11

Farmers Ins. Group v. District Court, 507 P.2d 865, cert, denied

14

21

Flatt v. Superior Court (1994) 9 Cal.4th 275, 283.)..........................

28

22

Hahn v. Oregon Physicians’ Service, 9th Cir., 868 F.2d 1022 (1988)

35

Haines v. Kerner, 404 U.S. 519, 596 (1972)

11

4
5
6
7
8
9
10
li

14
15
16

19
20

23
24
25
26
27
28

Holtberg v. Bommershach, 235 Minn. 553, 51 N.W.2d 586 (1952)

10

Kingston v. McGrath, 9th Cir., 232 F.2d 495 (1956)......................

35

Lambert v. Supreme Court of Colorado, 414 U.S. 878,
94 S. Ct. 156, 38 L. Ed.2d 123 (1973)..............................................

14

PETITION FOR WRIT OF CERTIORARI

vi

1
2

La n gager v Lake Havasu Community Hosp.,9th Cir.688 F.2d 664(1982).35

3

Lioce v. Cohen, 124 Nev. 1, 174 P.3d 970 (2008)

13

4

Long v. Shorebank Devi Corp., 182 F.3d 548 (C.A. 7 Ill. 1999)

12

Marquette Corp. v. Priester, 234 F.Supp. 799 (E.D.S.C.1964)

13

McDaniels v. Kirkland, 813 F.3d 781 (2015),
quoting Pinholster, 131 S.Ct. at 1398 ..........

10

McDaniel v. Yarbrough, 898 S.W.2d 251, 254 (Tex. 1995)

18

10

Manville v. Manville, 79 Nev. 487, 387 P.2d 661 (1963)

12

li

Moose v. Vesey, 225 Minn. 64, 29 N.W.2d 649 (1947)...........

10

5
6
7
8
9

12

16,17

NC-DSH, Inc. v. Garner, 125 Nev. 647, 218 P.3d 853 (2009)
13
14

Nev. Indus. Dev., Inc. v. Benedetti,
103 Nev. 360, 364, 751 P.2d 802, 805 (1987)

11

15
16

Nev. Yellow Cab Corp. v. Eighth Judicial Dist. Court,
123 Nev. 44, 54, 152 P.3d 737, 743 (2007).....................

7,21

Occhiuto v. Occhiuto 97 Nev. 143, 625 P.2d 568 (1981)

12

17
18
19

People ex rel. Dept, of Corporations v. SpeeDee Oil Change Systems, Inc.,
28
20 Cal. 4th 1135

20
21

Riddick v. Quail Harbor Condo. Ass'n, Inc., 7 S.W.3d 663, 678 ....

18

22

Rosenstein v. Steele, 103 Nev. 571, 575, 747 P.2d 230, 233 (1987)

11

Savage v. Salzmann, 88 Nev. 193, 495 P.2d 367)

12

T.C. Theatre Corp. v. Warner Bros. Pictures,
113F. Supp. 265, 268 (S.D.N.Y. 1953)............

27

23
24
25
26

35

United States v. Atkinson, 297 U.S. 157, 160 (1936)
27

28

18, 29

United States v. Marcus, 560 U.S. 258 (2010)
PETITION FOR WRIT OF CERTIORARI

vii

1
2
3
4

United States v. Olano, 507 U.S. 725, 736 (1993)

18

Westinghouse Elec. Corp. v. Gulf Oil Corp., 588 F.2d *886
221, 223 (7th Cir. 1978).........................................................

23

5

Willard v. Berry-Hinckley Indus., 136 Nev., Adv. Op. No.53 (Aug. 2020) ).10

6

Wineberg v. Park, 9th Cir., 321 F.2d 214 (1963)

7

35

Yochum v. Davis 98 Nev. 484, 486, 653 P2.d 1215, 1216 (1982

10,11

8
9

Constitutional Provisions

10

5th Amendment, U.S. Constitution,

2,36

12

14th Amendment, U.S. Constitution

2,36

13

Statues

li

14

NRAP 40B

9

NRAP 40 (c)

8

17

NRAP 40 (e)

8

18

NRCP 59(a)(d)

15
16

1,6,7,9,10,11,12,14,15,34

19

NRCP 60(b) (1-3)

1,6,7,9,10,11,12,13,14,15,16,34

20
21

NRCP 61

1,6,7,9,10,11,14,15,

22

NRCP 62(b)

1,6,7,9,10,11,14,15,

23

NRPC Rule 1.18(a)-(d)

26

NRS 49.035 through 49.085

25

24
25
26

2

28 U.S.C. Sect. 1245(1)

27
28
PETITION FOR WRIT OF CERTIORARI

viii

1
2

Rule
ABA Rule 1.10

27

ABA Rule 1.18(a)-(c)

27

5

ABA Rule 1.18(a)-(d)

,...26

6

ABA Rule 1.7

27

ABA Rule 1.9

,27

3
4

7
8

9

2

U.S. Supreme Ct Rule 13

10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
PETITION FOR WRIT OF CERTIORARI

ix

1
2

DIRECTLY RELATED PROCEEDINGS
Ford v. Budde, No. 77763, Supreme Court of Nevada. Petition for Review

3
4
5
6
7

denied October 08, 2020.
Ford v. Budde, No. 77763-COA, Nevada Court of Appeals. Order Granting
Rehearing in part, Denying in part, and Affirming August 24, 2020.
Ford v. Budde, No. 77763-COA, Nevada Court of Appeals. Order of

8
9
10
li

Affirmance April 27, 2020.
Ford v. Budde, No. PR16-00328, Second Judicial Court for the State of
Nevada, for the County of Washoe. Notice of Appeal filed December 22, 2018.

12

Ford v. Budde, No. PR16-00328, Second Judicial Court for the State of
13
14

Nevada, for the County of Washoe. Notice of entry of Order, regarding Report of

15

Administration, et al., entered on December 20, 2018.

16

Ford v. Budde, No. PR16-00328, Second Judicial Court for the State of

17
18
19
20
21

Nevada, for the County of Washoe. Notice of entry of Order, regarding Motion to
Relieve and Sanction Counsel, entered December 20, 2018.
Ford v. Budde, No.PR16-00328, Second Judicial Court for the State of
Nevada, for the County of Washoe. Notice of entry of Order, regarding Motion for

22
23
24
25

NRCP 59(a)(d). 60(b)(l)(2)(3). 61 and 62(b). entered December 20, 2018.
Ford v. Budde, No. PR16-00328, Second Judicial Court for the State of
Nevada, for the County of Washoe. Notice of entry of Order, regarding Motion to

26

Relieve and Sanction Counsel, entered December 20, 2018.
27
28

PETITION FOR WRIT OF CERTIORARI
Page | 1

l
2

Ford v. Budde, No. PR16-00328, Second Judicial Court for the State of
Nevada, for the County of Washoe. Plaintiffs reply and Objection to pertinent parts

3

of Defendant’s Report of Administration, et al., filed on September 25, 2018.
4
5

(Noticed DFX: Documents were submitted upside down)

6
7

STATEMENT OF JURISDICTION
The Nevada Court of Appeals issued its opinion on August 24, 2020. The

8
9

Nevada Supreme Court denied a petition for review on October 08, 2020. This

10

Court has jurisdiction under 28 U.S.C. Sect. 1254(1). See also U.S. Supreme

11

Court. Rule 13. Review on Certiorari: Time for Petitioning, “1......A petition for a

12

writ of certiorari seeking review of a judgment of a lower state court that is subject
13
14
15
16

to discretionary review by the state court of last resort is timely when it is filed with
the Clerk within 90 days after entry of the order denying discretionary review.”
CONSTITUTIONAL AND STATUTORY AUTHORITY INVOLVED

17

The relevant portions of U.S. Constitution’s 5th Amendment say to the federal
18
19

government that no one shall be "deprived of life, liberty or property without due

20

process of law."

21

The U.S. Constitution’s 14th Amendment, uses the same eleven words, called

22
23

24

the Due Process Clause, to describe a legal obligation of all states to provide fair
procedures.

25
26
27
28

PETITION FOR WRIT OF CERTIORARI
Page I 2

1
2

STATEMENT OF THE CASE
A. Brief Background

3
4

1. This starts as a Nevada Probate matter, that began with the death of

5

Katherine Diane Hill-Ford (Hill). Second Judicial District Court # PR16-00328

6

filed on or about June 14, 2016. Lawrence W. Ford (Ford), Hill’s legal spouse and

7

appearing In Pro Se in this entire matter. Anita L. Budde (Budde), appearing

8
9
10
11

through Attorney J. Douglas Clark (Clark), her counsel of record, is the executor of
Hill’s estate, per Hill’s Will, executed prior to the marriage of Ford and Hill.
Prior to appearing in this matter as an In Pro Se, Ford, in March of 2016,

12

contacted the office of Clark, seeking to obtain counsel for himself in this instant
13
14

matter. Ford discussed the confidential aspects of his case with Clark’s paralegal

15

and followed the telephone discussion with a detailed outline of his case, including

16

the actions he intended to take and the defenses he would use in the two main areas

17
18

of his case. Clark’s paralegal indicated that she and Clark had had a full discussion

19

about the details of the case and although Clark wished Ford luck, he declined to

20

take the case citing that he was way too busy to take on another case.

21

Yet, in June of 2016, Clark, on behalf of Budde, filed the Probate action case

22
23

number PR16-00328. Subsequently, after later learning that paralegal Lutsch and

24

Clark were in fact from the same office, Ford immediately filed a motion to relieve

25

Counsel Clark due to attorney conflict of interest. After being briefed, the court

26

requested that supporting documents be submitted “in camera” to the court in June
27
28

of 2017 and Ford complied July 3, 2017. (App- 1) Clark, knowing he would not

PETITION FOR WRIT OF CERTIORARI
Page | 3

l
2

survive the motion to relieve, sought out attorney Natalie J. Reed (Reed), and she
filed her notice of substitution on August 21, 2017. (App- 4) Even though she was

3
4
5
6

officially engaged in the case on August 7, 2017 and notwithstanding that she
worked with Clark on the case in January and February of 2017. (App- 71-85)
In January 22-23, of 2018, the Trial Court held an evidentiary hearing and

7

did in fact issue its order in that regard on or about March 16, 2018.
8
9

However, on September 14. 2018. a full six months after March 16, 2018,

10

Reed, on behalf of Budde, filed : (1) Report of Administration; (2) Estate Accounting;

11

(3) Petition Settling, Allowing, Confirming, and Approving the Report of

12

Administration and Estate Accounting; (4) Petition for Reimbursement of Personal
13
14

Representative’s Out-of-Pocket Expenses; (5) Petition for Payment of Personal

15

Representative’s Statutory Fee; (6) Petition for Payment of Extraordinary Fees to

16

the Personal Representative; (7) Petition for Payment and Reimbursement of

17
18

Attorneys’ Fees and Costs; and (8) Petition for Final Distribution of Estate

19

(hereinafter Report). (App- 7) Attached to said Report as exhibit #7, was the

20

affidavit of attorney Clark, clearly indicating that he had hired attorney Reed in

21

January of 2017, to work on this instant case, researching the exact same area that

22
23
24
25

petitioner Ford told him in confidence, that he would be using for his case against
Budde. (App- 71-75)
Ford, on September 25, 2018, filed his Objections to the Report, addressing

26

each area of the Report, showing Reed’s clear conflict of interest. (App- 28) From
27
28

this, Reed filed her reply. (App- 47)

PETITION FOR WRIT OF CERTIORARI
Page I 4

l
2

Based upon Budde’s filing of the Report by Reed and Ford’s subsequent
objections, Ford also filed his motion to relieve and sanction Reed on September 26,

3
4
5
6

2018. First explaining the Clark previous conflict and then Reed’s conflict. (App-59)
Ford then filed his motion for a new trial on September 28, 2018, based solely
upon Reed’s statements within and in support of the Report, as well as Clark’s

7

affidavit and attachments.1 (App- 107, 71-85)
8
9

2.

The Attorney conflict of interest, misconduct, and fraud
upon the court comes to light

10
11

As the petitioner would eventually discover, attorneys Clark and Reed had

12

caused the case, by virtue of their participations in it, to be riddled with conflict of

13

interest, misconduct, and fraud upon the Court.

14

a. The conflict of interest started with Clark agreeing to represent Budde

15
16
17
18

after Ford had already discussed his case strategy and confidential information
with him and representatives of his office.
b. Because the Petitioner was a former client of Clark and had transferred

19

confidential information to him, the conflict of interest was imputed to Reed and
20
21

disqualified her once she substituted in as she previously worked on this case with

22

Clark, some 2 to 3 months prior to Ford moving to have Clark removed. (App- 71-

23

77) Conflict of interest is imputed to Reed either as a lawyer or employee of and for

24
25

Clark. (App- 78-85)

26

27
28

1 It is noteworthy to add that while there was indeed a March 16, 2018
order issued as a result of the January 23, 2018 evidentiary hearing, the
triggering dates petitioner Ford is referring to, has to do specifically and
only with September 2018 and nothing to do with March 16, 2018.
PETITION FOR WRIT OF CERTIORARI
Page I 5

l
2

c. The obvious misconduct started when both Clark and Reed, who are
seasoned attorneys, agreed to work together in allowing and agreeing in Reed’s

3
4
5
6
7

substitution of herself into the case. (App-71-85)
d. The fraud upon the court takes place when neither Clark nor Reed alerts
the petitioner or the court to the obvious conflict of interest, allowing it to continue
until finally discovered in the September 14, 2018 filing of the Report. (App-18-20)

8
9
10
11

B. District Court Proceedings
Armed with the September 14, 2018 documented and confirmed evidence of
both counsel’s conflict of interest, misconduct and fraud, contained within the

12

Report, petitioner Ford objected to the Report and immediately moved to have Reed
13
14

relieved and to set aside the trial based upon a conflict of interest, misconduct and

15

fraud upon the court. (App- 59,107)

16

In regard to the motion to relieve and sanction counsel, due to conflict of

17
18
19
20
21
22
23

interest, misconduct and fraud, the District Trial Court’s order stated that,
“The Court finds that Ms. Reed acted ethically and appropriately in this case, and
that the tasks that she took on in this case were in compliance with the law and are
required to he completed in an estate matter resulting in a full and final distribution
of estate assets. For these reasons, the Court finds that Plaintiffs Motion lacks both
statutory and ethical grounds upon which it could be granted.
ACCORDINGLY, THE COURT DENIES PLAINTIFF’S MOTION TO
RELIEVE AND SANCTION COUNSEL IN ITS ENTIRETY.
Dated this 19th day of December, 2018.” (App- 105)

24
25

In regard to the motion for relief under NRCP 59, 60, 61 and 62, the District

26

Trial Court stated that,

27

“After reviewing all of the pleadings on file herein, the Court finds that the Plaintiffs
Motion reflects a misunderstanding of NRCP 59, NRCP 60, NRCP 61, and NRCP

28

PETITION FOR WRIT OF CERTIORARI
Page | 6

1

7

62, and specifically, a misunderstanding of what is required for relief to be granted
under any of those provisions of the Nevada Revised Statutes. As a result of that
finding, the Court further finds that the grounds asserted by Mr. Ford in his Motion
do not constitute sufficient grounds under Nevada law to grant the relief request in
Plaintiffs Motion.
ACCORDINGLY, THE COURT DENIES PLAINTIFF’S MOTION FOR NEW
TRIAL NRCP 59 (a)(d); RELIEF FROM JUDGMENT OR ORDER NRCP
60(b)(l)(2)(3); HARMLESS ERROR NRCP 61; AND STAY OF
PROCEEDINGS NRCP 62(b) IN ITS ENTIRETY.
Dated this 19th day of December, 2018.” {App- 138-139)

8

Petitioner Ford filed his notice of appeal on December 22, 2018 and was

2
3
4
5
6

9

allowed to go forward in Forma Pauperis on January 2, 2019.

10
li
12
13

C. Appellate Court Proceedings
The Nevada Appellate Court, affirmed the trial court on all matters and
issued its ORDER OF AFFIRMANCE, on April 27, 2020, making the following

14

three main conclusions:
15
16
17
18
19
20
21
22
23
24
25
26
27
28

1. “Ford also asserts that the district court abused its discretion in denying
his motion for a new trial and for relief from judgment related to the
March 16, 2018, order entered following the evidentiary hearing. But that
motion was not timely filed and thus, it was properly denied.”(App-161-162)
2. “Ford further argues that the district court abused its discretion in
denying his motion to disqualify counsel based upon an alleged conflict of
interest. Based upon our review of the arguments and record before us, we
cannot say that the district court manifestly abused its discretion in
denying the motion to disqualify. See Nev. Yellow Cab Corp. v. Eighth
Judicial Dist. Court, 123 Nev. 44, 54, 152 P.3d 737, 743 (2007)(noting that
the district court has broad discretion in matters of disqualification and
that a district court’s order on disqualification will not be set aside absent
a manifest abuse of that discretion). (App- 161)
3. “Additionally, Ford faults the court for stating at the hearing on Budde’s
petitions that it had not seen an objection filed to the petitions. Based
upon that statement and the fact that the order does not specifically
address his objection, or the arguments contained therein, he asserts that
the district court did not properly review all of the evidence presented.

PETITION FOR WRIT OF CERTIORARI
Page I 7

1
2
3
4

But the relevant transcript and the order indicate otherwise. Specifically,
while the judge initially made the statement Ford asserts was in error, at
a later hearing, just prior to giving the ruling on the matter, the judge
stated that she had spent quite a bit of time reviewing everything in the
case and that the report and accounting were approved over Ford’s
objection. (App- 160)

5
6

The Nevada Appellate Court concludes its Order stating, “Based on the

7

foregoing, we ORDER the judgment of the district court AFFIRMED.”

8

Ford than filed the APPELLANT’S PETITION FOR REHEARING, on May

9

19, 2020. (App- 165)

10
li

On August 24, 2020, the Nevada Court of Appeals filed its ORDER

12

GRANTING REHEARING IN PART, DENYING IN PART, AND AFFIRMING,

13

making the following three main conclusions:

14
15
16
17
18
19
20
21
22
23
24
25

26
27

1. “Accordingly, we grant rehearing and reinstate this appeal for the limited
purpose of revising the grounds of which this court addressed Ford’s
assertion that his objection was not considered. See NRAP 40(e). To the
extent Ford seeks rehearing on other issues related to this court’s April 27
order of affirmance, his petition is denied. See NRAP 40(c).”(App-l78-179)
2. “On appeal. Ford faults the court for stating at the hearing on Budde’s
petitions that it had not seen an objection filed. Based upon that
statement and the fact that the district court’s order does not specifically
address his objection, or the arguments contained therein, he asserts that
the district court did not properly review all of the evidence presented.
But the relevant transcripts and the court’s order indicate otherwise.
While the district court judge did initially state that she did not see Ford’s
objection, the court subsequently corrected that statement after
questioning from Budde’s counsel, noting that she did, in fact, have the
objection.” (App- 179)
3. “Under these circumstances, Ford’s assertions that his objection was not
considered are unfounded, and his argument in this regard lacks merit.
Accordingly, we affirm the district court’s resolution of Budde’s petitions.”

(App-180)

28

PETITION FOR WRIT OF CERTIORARI
Page | 8

1
2

D. Nevada Supreme Court Proceedings
The Petitioner Ford filed on September 4, 2020, a “PETITION FOR REVIEW

3
4

BY THE SUPREME COURT”.

5

On October 8, 2020, The Nevada Supreme Court issued an “ORDER

6

DENYING PETITION FOR REVIEW. Review denied. NRAP 4OB) It is so

7

ORDERED.” (App-181)
8
9
10
11

Thus, the matter was not reviewed by the Nevada Supreme Court, the State
Court of last resort, which opted to deny the petition for review. (App- 181)
REASONS FOR GRANTING THE PETITION

12
13
14
15

A. Discussion as to question one:
In a standard of review as used by appellate courts to review discretionary
decisions of lower trial courts, the review court will likely find that the trial court

16

abused its discretion if the decision resulted from a mischaracterization of the trial
17
18

court record, creating a plain error, and the erroneous mischaracterized fact(s) are

19

then relied upon in its findings and conclusions.

20

The petitioner brought to the Appellate court, an erroneous decision of the

21

trial court, in that the trial court stated that,
22

23
24
25
26
27
28

“After reviewing all of the pleadings on file herein, the Court finds that the
Plaintiffs Motion reflects a misunderstanding of NRCP 59, NRCP 60, NRCP 61,
and NRCP 62, and specifically, a misunderstanding of what is required for relief to
be granted under any of those provisions of the Nevada Revised Statutes. As a
result of that finding, the Court further finds that the grounds asserted by Mr. Ford
in his Motion do not constitute sufficient grounds under Nevada law to grant the
relief request in Plaintiffs Motion. ACCORDINGLY, THE COURT DENIES
PLAINTIFFS MOTION FOR NEW TRIAL NRCP 59 (a)(d); RELIEF FROM
JUDGMENT OR ORDER NRCP 60(b)(l)(2)(3); HARMLESS ERROR NRCP

PETITION FOR WRIT OF CERTIORARI
Page | 9

1
2
3
4

61; AND STAY OF PROCEEDINGS NRCP 62(b) IN ITS ENTIRETY.” (App138-139)
Appeals court decisions are supposed to turn on the record, with the appellate
court accepting facts as they were revealed in the trial court, not those erroneously

5
6

inserted after. (See Brookshire Grocery Company v. Cleon Morgan. Sr. 2018

7

Ark. 62, 539 S.W.3d 577). The March 16, 2018 date was inserted by the appellate

8

court for the first time in Order of Affirmance. (App- 158-159)

9

It is well known that appellate courts are confined to the record compiled

10
li
12
13

below and have no part in a record’s composition.
In the matter of McDaniels v. Kirkland. 813 F.3d 781 (2015), ... quoting
Pinholster, 131 S.Ct. at 1398. The Supreme Court thus held that "the record under

14

review is limited to the record in existence at that same time."
15
16
17
18

It is well settled that an appellate court may not base its decision on matters
outside the record on appeal, and that matters not produced and received in
evidence below may not be considered. Moose v. Vesev. 225 Minn. 64, 29 N.W.2d

19
20
21
22
23

649 (1947); Holtberg v. Bommersbach, 235 Minn. 553, 51 N.W.2d 586 (1952)
Notwithstanding that the Nevada reviewing Court requires the issuance of
express factual findings in the denial of a NRCP 59 & 60 motion (See Willard v.
Berrv-Hincklev Indus.. 136 Nev., Adv. Op. No. 53 (Aug. 2020)), the Nevada

24
25

supreme court also established in Yochum v. Davis. four factors that indicate

26

whether NRCP 60(b)(1) relief is appropriate and required district courts to issue

27

explicit factual findings in the first instance on all four Yochum factors.

28

PETITION FOR WRIT OF CERTIORARI
Page | 10

1
2

Petitioner’s motion for relief and a new trial shows that every factor of Yochurn v.
Davis, as established by this Court, was met by petitioner’s 9-28-2018 filing, given

3
4
5
6

the revealing Report of 9-14-2018. (App- 7)
The district court then gave only one reason, addressing only one factor, by
stating in its order denying said motion, “ the Court finds that the Plaintiff’s Motion

i

reflects a misunderstanding of NRCP 59, NRCP 60, NRCP 61, and NRCP 62, and
8
9
10
li

specifically, a misunderstanding of what is required for relief to be granted under
any of those provisions”. (App- 138-139) (See Yochum v. Davis. 98 Nev. 484, 486,
653 P2.d 1215, 1216 (1982): Epstein v. Epstein. 13 Nev. 1401, 1405, 950 P2d

12
13
14
15
16

771, 773 (1997).
Documents filed In Pro Se are to be liberally construed. It is well known that
In pro se filings are held to less stringent standards than formal pleadings drafted
by lawyers. Erickson v. Pardus. 551 U.S. 89, 94 (2007); Haines v. Kerner. 404

17
18
19
20

U.S. 519, 596 (1972). See also, Estelle v. Gamble. 429 U.S. 97, 106 (1976).
“The salutary purpose of Rule 60(b) is to redress any injustices that may have
resulted because of excusable neglect or the wrongs of an opposing party.” (Nev.

21

Indus. Dev., Inc, v. Benedetti. 103 Nev. 360, 364, 751 P.2d 802, 805 (1987)).
22
23

Were it not for the attorneys for the Budde, hiding the fact that they both

24

worked on this case together, the Rule 59, 60 motion would not have been filed!

25

While the appellate court cites at page 5 of the Order of Affirmance,

26

27

Rosenstein v. Steele, there was no correct result reached for different reasons.

28

PETITION FOR WRIT OF CERTIORARI
Page | 11

1
2

This was incorrect fact(s) imputed by the appellate court, making their appellate
findings and conclusions incorrect. (App- 162)

3
4

However, NRCP Rule 59(a) speaks to a new trial being granted to any party

5

on all or part of the issues for any of the following causes or grounds materially

6

affecting the substantial rights of an aggrieved party: (1) Irregularity in the

7

proceedings of the ... .adverse party; (2) Misconduct of the prevailing party; (3)
8
9
10
li

Accident or surprise which ordinary prudence could not have guarded against: (4)
Newly discovered evidence material for the party making the motion which the
party could not, with reasonable diligence, have discovered and produced at the

12
13

trial. Rule 60(b)(l)-(3) for almost the same reasons speaks to relief for, “(b)

14

Mistakes; Inadvertence; Excusable Neglect; Newly Discovered Evidence; and

15

Fraud (whether heretofore denominated intrinsic or extrinsic), misrepresentation

16

or other misconduct of an adverse party,” NRCP 60(b) states that, “This rule

17
18

does not limit the power of a court to entertain an independent action to

19

relieve a party from a judgment, order, or proceeding, or to set aside a

20

judgment for fraud upon the court.” (See Carlson v. Carlson 108 Nev. 358.

21

832 P.2d 380 (19921. Manville v. Manville. 79 Nev. 487. 387 P.2d 661 (19631
22
23

(the six-month limitation has no application when fraud), Occhiuto v.

24

Occhiuto 97 Nev. 143. 625 P.2d 568 (1981). and Savage v. Salzmann. 88 Nev.

25

193. 495 P.2d 367)

26

27
28

From the time Reed substituted onto the case, and the appellate court being
apprised of petitioner’s contentions of conflict of interest and fraud, should have

PETITION FOR WRIT OF CERTIORARI
Page | 12

1
2

scrutinized it with great care, and any judgment procured by fraud, voided. (App172-174) See Lons v. Shorebank Devi Corp.. 182 F.3d 548 (C.A. 7 III. 1999).

3
4

Although NRCP Rule 60(b)(4) is ostensibly subject to the "reasonable" time limit

5

of Rule 60(b). no time limit applies to a motion under a Rule 60(b)(4) because a

6

void judgment can never acquire validity through laches. See Crosby v. Bradstreet

i

Co.. 312 F.2d 483 (2nd CirJ cert, denied. 373 U.S. 911. 83 S.Ct. 1300. 10
8
9
10
li

L.Ed.2d 412 (1963) where the court vacated a judgment as void 30 years after
entry. See also Marquette Corn, v. Priester. 234 F.Sudd. 799 (E.D.S.C.1964)
where the court expressly held that clause Rule 60(b)(4) carries no real time limit

12
13

In the case of Lioce v. Cohen. 124 Nev. 1.174 P.3d 970 (2008). the

14

Supreme Court of Nevada citing a plethora of cases, in its conclusion, directing

15

district courts that when deciding a motion for a new trial, the district court

16

must make specific findings, both on the record during oral proceedings and in

17
18
19
20

its order, with regard to its application of the standards described, to the facts of the
case before it. The Trial Court did not satisfy this requirement. (App- 138-140)
With the level of experience had by attorneys Clark and Reed, this is something

21

that could have only been purposely omitted, as Reed had stated she did not have to
22
23

tell anyone. (App- 87, 94-101) They knew or should have known as seasoned

24

attorneys that NO Court would sit still and let such a blatant fraud upon the Court

25

and the Judicial System stand. Reed perpetrated a fraud upon the Court, pursuant

26
27

to NRCP 60(b). that succeeded for over a year, with little regard for our Court’s

28

PETITION FOR WRIT OF CERTIORARI
Page | 13

1
2

want of integrity and it most certainly allowed Reed to have irreparable and unfair
advantage over this petitioner.

3
4

The petitioner had alleged and met every element of Rule 59 and 60.

5

pertaining to the showing of Irregularity, Attorney Misconduct, Accident, Fraud or

6

Surprise, that could have been discovered anywhere near the time requirement

7

stated therein. Counsel Reed, kept quiet about taking on a case that she obviously
8
9
10
li

conflicted out of and there was no way petitioner could have known this prior to
finding it in the Report at Clark’s affirmation, filed on September 14, 2018. (App-7)
Nothing could have been known in time to move for a new trial or any other

12
13

kind of relief under either Rule 59(b) or 60(b). BECAUSE the attorneys hid this

14

obvious conflict from both the petitioner and the court. This was an unavoidable

15

hindrance. See Farmers Ins. Group v. District Court. 507 P.2d 865. cert.

16

denied: Lambert v. Supreme Court of Colorado. 414 U.S. 878. 94 S. Ct. 156.

17
18
19
20

38 L. Ed.2d 123 (1973).
It is unbelievable that neither, Clark or Reed were aware of what the conflicts
were, or that omitting their working arrangement prior to the August 21, 2017

21

substitution was a clear act of misconduct.
22
23
24
25

NRCP Rule 61 indicates that there is harmless error, unless refusal to take
such action appears to the court, to be inconsistent with substantial justice. Rule
62(b) speaks to a stay on such conditions for the security of the adverse party and

26

27

that the court can stay a matter pursuant to Rule 59 or Rule 60.

28

PETITION FOR WRIT OF CERTIORARI
Page | 14

1
2

Given petitioner’s moving papers, showing that he didn’t learn of the rule
violations until the September 14, 2018 filing of the Report via Clark’s affirmation,

3
4

and for the trial court to say that petitioner’s Motion reflects a misunderstanding of

5

NRCP rule 59. 60. 61. and 62, as well as a misunderstanding of what is required

6

for relief to be granted under any of the provisions mentioned, can certainly be

7

construed as strange.
8
9
10
li

Yet, the appellate court, charged with reaching a finding and conclusion based
upon what is in the trial record, states that,
“Ford also asserts that the district court abused its discretion in denying his motion

12
13

for a new trial and for relief from judgment related to the March 16. 2018. order

14

entered following the evidentiary hearing. But that motion was not timely filed and

15

thus, it was properly denied.” (App- 161-162)

16

Petitioner motion for a new trial was based upon what was learned

17
18

in the September 14. 2018 Report filing (App- 113-120) and petitioner so

19

advised the appellate court of its error in “Appellant’s Petition for Rehearing”, filed

20

on May 19, 2020, at pages 1-2:25-8, indicating that his motion was “NOT” related

21

to a March 16, 2018 order, that the date of March 16. 2018. was in fact never
22

23

discussed in his moving papers, reply papers of the motion, nor the appellant’s

24

opening brief. In fact, Petitioner’s appellant’s opening brief at the very beginning of

25

the statement of fact, made it very clear that the dates began with the fifing of the

26
27

Report of Administration on September 14, 2018, and all of petitioner’s moving

28

PETITION FOR WRIT OF CERTIORARI
Page | 15

1
2

papers for his objections and all motions were as a result of the report filing,
anticipating the order that was and did come.

3
4

If per arguendo, if petitioner’s motion was related to the March 16th order and

5

the appellate court had not made the mistake it did, there was still discretionary

6

abuse given that there is no time limit regarding the perpetration of fraud upon a

7

court per NRCP 60(b).
8
9
10
li

A-l. The Appellate Court argues point 1. for the petitioner
What is most incredulous, is that the appellate court cites in footnote 2 of its
Order of Affirmance, NC-DSH. Inc, v. Garner. 125 Nev. 647, 218 P.3d 853 (2009)

12
13

in support of the denial of petitioner’s contention that a motion for fraud upon the

14

court was allowable past the 6 month limitation period, and stating that the

15

argument is without merit. (App- 162) However, in another case on point, NC-

16

DSH, Inc, v. Garner. 125 Nev. 647, 650, 218 P.3d 853, 856 (2009) states,

17
18

“[W]hen a judgment is shown to have been procured by fraud upon the court, no

19

worthwhile interest is served in protecting the judgment.” Id. at 653, 218 P.3d at

20

858 (internal quotation marks omitted). We have defined a “fraud upon the court”

21

as “only that species of fraud which does, or attempts to, subvert the integrity of the
22
23

court itself, or is a fraud perpetrated by officers of the court so that the judicial

24

machinery cannot perform in the usual manner its impartial task of adjudging

25

cases .” Id. at 654, 218 P.3d at 858 (emphasis added) (internal quotation marks

26

27
28

omitted). “An attorney is an officer of the court”; as such, an attorney “owes a duty
of loyalty to the court, [which] demands integrity and honest dealing with the

PETITION FOR WRIT OF CERTIORARI
Page | 16

1
2

court.” Id. at 654-55, 218 P.3d at 858-59 (internal quotation marks omitted). “And
when [an attorney] departs from that standard in the conduct of a case[,] he

3
4

perpetrates fraud upon the court.” Id. at 655, 218 P.3d at 859 (internal quotation

5

marks omitted). Even then, in Bonnell v. Lawrence. 128 Nev. 394, 400, 282 P.3d

6

712, 715 (2012), it is allowed to prevent a grave miscarriage of justice.

7

The appellate court did however make an error and used the wrong
8
9

triggering date in its findings and conclusions and when the petitioner advised the

10

appellate court, it simply denied that part of the petition for rehearing, leaving the

li

petitioner and the court record with, “Ford also asserts that the district court

12
13

abused its discretion in denying his motion for a new trial and for relief from

14

judgment related to the March 16. 2018. order entered following the evidentiary

15

hearing. But that motion was not timely filed and thus, it was properly denied.”

16

(App- 161-162)

17
18
19
20

Again, the motion was filed as a result of the September 14, 2018 filing and
was filed on September 28, 2018. (App-107)
The appellate court erred and inserted the wrong date and then made its

21

ruling based on that wrong date.
22
23
24
25

As with the trial courts, should not the appellate courts in their decisions
outlining their findings and conclusions also be viewed as clearly erroneous, if that
decision is not correctly based upon a lower court’s record, but rather a factual

26

27
28

mischaracterization that contains an error inserted by that reviewing court. (App158) Not to mention that the reviewing court was given sound information that

PETITION FOR WRIT OF CERTIORARI
Page | 17

1
2

could only leave the court with a definite and firm knowledge that a mistake was
made by their own hand, and properly raised to that court on a petition for review?

3
4
5
6

This question alone merits review. (App- 166)
In the United States v. Olano. 507 U.S. 725, 736 (1993) and United
States v. Marcus. 560 U.S. 258 (2010), the Court gave a clear understanding to

7

the plain-error rule an appellate court can use to correct an error not raised at trial
8
9

when the appellant demonstrates that (1) there is an error, (2) the error is clear or

10

obvious, (3) the error affected the appellant's substantial rights, and (4) the error

li

seriously affects the fairness, in-tegrity, or public reputation of judicial proceedings.

12

It is clear that the petitioner in this case clearly satisfied all four prongs this
13
14

Court set forth in Olano and/or Marcus, would not the guidelines therein, also

15

apply to this Appellate Court as well, particularly when it was this appellate court

16

that created this blatant error?

17
18

In reviewing the trial court's decision, an appellate court does not substitute

19

its judgment for that of the trial court but decides whether the trial court's decision

20

constitutes an abuse of discretion. See McDaniel v. Yarbroush. 898 S.W.2d 251.

21

254 (Tex.1995): Riddick v. Quail Harbor Condo. Ass'n. Inc.. 7 S.W.3d 663. 678
22
23
24
25

(Tex.App.-Houston 114th Dist.l 1999. no pet.).
The Nevada Appellate Court, due to its own error of inserting the incorrect
triggering date, has substituted its own judgment, and thus decided an important

26

27

question in a way that has so far departed from the accepted and usual course of

28

PETITION FOR WRIT OF CERTIORARI
Page | 18

l
2

judicial proceedings, and whose action has created a case of first impression that
not only calls for, hut demands an exercise of this Court's supervisory power.

34

So, question 1 clearly becomes necessary to answer! What is the abuse of

5

discretion standard to be used for review, in a case where the appellate court

6

itself, upon reviewing a trial court’s record, picks out an old and non-applicable

7

material fact and uses it as a triggering date, which was never raised in any of
8
9

petitioner’s three (3) September motions that prompted the trial court orders, nor

10

that was never raised or briefed on appeal, then erroneously substitutes this non-

li

applicable order’s six (6) old triggering date at a point in the record six (6) months

12

later, and then, in reliance upon this incorrect triggering date, mistakenly imputes
13
14

the incorrect triggering date into its findings and conclusions, thereby creating an

15

error of such a nature, that it impacts every aspect of the case, and to leave it

16

uncorrected would result in damage to the integrity, reputation, and fairness of the

17
18

judicial process?

19

B. Discussion as to question two:

20

On or about September 14, 2018, Budde, through her counsel of record Reed,

21

filed her Report of administration, Reed attached to this Report, two (2)

22
23
24
25

affirmations, one on behalf of herself with attached invoices and one on behalf of
Clark, with attached invoices.
Upon reading the Report, the affirmations of Reed and Clark, along with their

26

attached invoices, it became crystal clear that Reed and Clark had created a conflict
27
28

of interest. (App- 7, 71-83)

PETITION FOR WRIT OF CERTIORARI
Page | 19

l
2

In or about March of 2016, Ford sought Clark out to represent him in this
instant matter, conveying all his confidential information and strategies to Clark

3
4

and his office. After several days, Clark’s office advised the petitioner that he was

5

too busy with other cases and could not take on his case. After approximately two

6

months, unbeknown to Ford, Clark took on the case on behalf of Budde, and against

7

Ford. Clark followed this by hiring Reed to do legal research in the case in the
8
9
10
li

same area that Ford’s strategies rests and covering the exact same topics.
In the interim, Ford learns that it is the same Clark representing Budde, that
he spoke with and immediately filed to have Clark removed. Ford and Clark

12

briefed the matter before the court in May thru June of 2017, and the court ordered
13
14

the email documents between the two parties to be filed in-camera. Following the

15

documents being presented in-camera, Clark suspecting the outcome, entered into

16

talks with Reed for her to substitute herself in the case as new counsel for Budde.

17
18

The invoice documents they attached to their affirmations in the Report, shows they

19

discussed it between themselves as well as with Budde. Substitution of counsel was

20

effective on August 7, 2017. (App- 71-83)

21

On August 7, 2017, per the Report, Reed began her involvement in the case as

22
23
24
25

counsel, and the substitution of attorney is filed on August 21, 2017.
On September 14, 2018, Reed files the Report and Ford files his objections,
addressing those issues, the conflict of interest2 and requesting that all matters be

26
27
28

2 Clark came onto the case around June/July 2016, after telling Ford he
was too busy. Clark hired Reed to work with him and do research in the same
area Ford told Clark, in confidence, that he would work in. Reed worked on

PETITION FOR WRIT OF CERTIORARI
Page | 20

1
2

stayed, so that the conflict of interest issue could be sorted out, given the conflict of
interest was ostensible at the very least.

3
4

Notwithstanding what became petitioner’s most extremely unique 19-

5

page objection to Budde’s Report pointing out how the case had been

6

fraught with fraud and tainted from its beginning, petitioner filed his 21-

7

page motion to relieve and sanction counsel on 9-26-2018. Reed filed her 78
9
10
li

page opposition on 10-10-2018. with petitioner filing his 12-page reply on
10-18-2018. One 19-page brief and three briefs of 40-pages of a motion that
argued only attorney conflict of interest (App- 59-103), and the trial court

12
13
14
15
16
17
18
19
20

responded as follows, (emphasis added)
“The Court finds that Ms. Reed acted ethically and appropriately in this case, and
that the tasks that she took on in this case were in compliance with the law and are
required to he completed in an estate matter resulting in a full and final distribution
of estate assets. For these reasons, the Court finds that Plaintiffs Motion lacks both
statutory and ethical grounds upon which it could be granted. ACCORDINGLY,
THE COURT DENIES PLAINTIFF’S MOTION TO RELIEVE AND
SANCTION COUNSEL IN ITS ENTIRETY(App-104-105)
There are two things that appear to fall into a bird’s eye view, one becomes
painfully clear, that the court did not see the objections to the Report (as

21

more fully discussed in question 3), filed by Ford, and gave even less attention or
22
23

weight to the contents of the motion to relieve and sanction counsel, its opposition

24

and reply briefs and instead responded in a fashion that one can clearly see

25

the court only saw and responded to the Report brief as if it were standing

26

27
28

the case beginning in January through February/March of 2017 and then Clark
stepped out and allowed Reed to Substitute in, in August of 2017. They did
this because of Ford's motion to dismiss Clark, all without telling Ford or
the Court.

PETITION FOR WRIT OF CERTIORARI
Page | 21

l
2

alone, and totally absent of 59-pages from both sides regarding the pros and cons of
conflict of interest. There is not one district court judge, having seen 59-pages of a

3
4

briefed argument on conflict of interest, who would not make some sort of comment

5

pertaining to that argument. These were not briefs weighted to several topics,

6

instead they were all weighted towards conflict of interest, demanding a response.

7

This borders on Judicial Misconduct on its face.
8
9

Second, and less obvious is that the lower courts have little respect or

10

patience with In Pro Se litigants who are often perceived as a drag on the courts

li

time and resources and will not simply go away, in their sincere desire for a full and

12

fair opportunity for justice. Thinking he has nothing important to say, doesn’t fully
13
14

understand the system, and doesn’t know when to go away and accept his fate, as

15

such, the court and its legal assistants doesn’t look at the briefs of the petitioner

16

with respect, in what they hoped would be the latter stages of the case, as if it were

17
18
19
20

Res adjudicata.
From this, the petitioner files his appeal and the reviewing appellate court
issues the following finding and conclusion pertaining to this portion of petitioner’s

21

appeal:
22

23
24
25
26
27

“Ford further argues that the district court abused its discretion in denying his
motion to disqualify counsel based upon an alleged conflict of interest. Based upon
our review of the arguments and record before us, we cannot say that the district
court manifestly abused its discretion in denying the motion to disqualify. See Nev.
Yellow Cab Corp. v. Eighth Judicial Dist. Court, 123 Nev. 44, 54, 152 P.3d 737, 743
(2007)(noting that the district court has broad discretion in matters of
disqualification and that a district court’s order on disqualification will not be set
aside absent a manifest abuse of that discretion). (App-161)

28

PETITION FOR WRIT OF CERTIORARI
Page | 22

l
2
3

B-l. The Appellate Court argues case on point 2 for petitioner
The question to be asked at this point is, where in the record does the trial
court even mention “conflict of interest?” Even in citing Nev. Yellow Cab Corp, the

4
5

reviewing appellate court acknowledges and discusses “conflict of interest”, with the

6

cited case is replete with discussion on what constitutes the conflict. See also,

7

Ennis v. Ennis. 88 Wis. 2d 82. 276 N.W.2d 341. 348 (Ct. App. 1979), “a serious

8

breach of the Code of Professional Responsibility” and should be disqualified. Id. at

9
10

98, 276 N.W.2d at 347. Noting that the attorney's conflict of interest was

li

"obvious," id. at 99, 276 N.W.2d at 348; City of Whitewater v. Baker. 99 Wis.2d

12

449, 299 N.W.2d 584, 586 (Ct. App. 1980)

13

Also, "where an attorney represents a party in a matter in which the adverse
14
15

party is that attorney's former client, the attorney will be disqualified if the subject

16

matter of the two representations are 'substantially related.” Westinshouse Elec.

17

Corn, v. Gulf Oil Corn.. 588 F.2d *886 221, 223 (7th Cir. 1978)

18

Yet, absent the petitioner’s lack of understanding, both the trial court and the
19
20

reviewing court seems to ignore where petitioner points out for the sake of

21

argument, that the obfuscation being attempted and the courts appears to turn

22

their one blind eye towards, again requires, a careful restatement of that 12-point

23
24

timeline of events central to the issue of the conflict of interest claims:

25

1. “On or about March 5. 2016. petitioner’s Office contacted Clark’s office and

26

exchanged the initial communication of privileged information and work

27

product information, which was the heart of the petitioner’s action/defense.
28

PETITION FOR WRIT OF CERTIORARI
Page | 23

1
2

This included, but was not limited to, an in-depth discussion on issues
relating to his community and separate property claims and the co-mingling

3
4

of all assets related thereto. It is noteworthy that nowhere has Defendant

5

provided any rebuttal to petitioner’s claim that highly confidential and

6

privileged information was provided to Mr. Clark. Counsel Clark opted to not

7

represent the petitioner at that time, claiming he was too busy with two other
8
9
10
li

cases, petitioner however, had already provided a roadmap of the sensitive
aspects of his case with the expectation that Clark would be willing to
establish a client-lawyer relationship. As such, petitioner was a “prospective

12
13

client” within the meaning of this Rule and in fact an actual client. See

14

petitioner’s “In-Camera” documents submitted to the Court on July 3, 2017.

15

However, two (2) months later, following the receipt of the petitioner’s vital

16

and privileged information and strategy, and his confidential work product,

17
18

Clark is on the case for Budde having absorbed the petitioner’s information

19

and logic dictates that Reed compared it to the Defendant’s information;

20

2. On or about April 24. 2017. petitioner had finally acquired the information

21

to connect the dots and realized that it was in fact Clark and his paralegal
22
23

Kathi Lutsch, who had received the aforementioned vital information.

24

3. On or about April 27. 2017. petitioner filed his Motion to Relieve and/or

25

Disqualify Counsel.

26
27
28

4. On or about May 10. 2017. Clark filed a response to the April 27, 2017
“Motion”.

PETITION FOR WRIT OF CERTIORARI
Page | 24

l
2

5. On or about May 11. 2017, petitioner filed his Reply to Clark’s above
Response.

3
4

6. On or about June 28. 2017. the Court issued an Order requesting the In-

5

Camera submission of the e-mails in question between petitioner’s office and

6

Clark’s office.

7

7. On or about July 3. 2017. petitioner submitted in camera, as ordered by this
8
9

Court, the pertinent e-mails, showing that he had to have been considered

10

both a Prospective client and an actual Client of Counsel Clark. As outlined

li

in Nevada Revised Statutes, NRS 49.035 through 49.085 and the applicable

12

rules of the NRPC.
13
14

8. Clark responded to the submission of petitioner.

15

9. On or about July 27. 2017. petitioner replied to Clark’s response; and

16

10. On or about August 21. 2017. Clark conceded, and he and Reed filed the

17
18

Substitution of Counsel. Ms. Reed’s takeover of the case was specifically due

19

to the petitioner’s then pending “Motion to Relieve and/or Disqualify Counsel”

20

Clark; (App-71-83)

21

11. Now again, I would like to direct this Court’s attention to the timeframe
22
23

between points 1 and 2 above and point out that on or about January 5,

24

2017 thru February 28. 2017. Clark’s law firm associated with Reed’s law

25

firm and Reed worked on the most important aspects of petitioner’s case, that

26

being community and separate property, with the commingling of community
27
28

and separate property assets, the core issues of petitioner’s case. This takes

PETITION FOR WRIT OF CERTIORARI
Page | 25

l
2

place a short two (2) months before petitioner learns that it was this
particular Clark’s office that had direct access to his vital and privileged

3

4

information and strategy and his confidential work product as well.

5

12. When the petitioner filed his Motion to Relieve Clark, he had absolutely no

6

idea that Reed had been silently and clandestinely working on the case.”

7

It should have been clear to the Court that the petitioner had been a
8

9

Prospective client of Clark while Reed was associated with the case and Clark.

10

NRPC states in pertinent parts and is quite clear at “Rule 1.18(a)-(d).

li

Duties to Prospective Client:

12
13
14
15
16
17
18
19
20

(a) A person who consults with a lawyer about the possibility of forming a
client-lawyer relationship with respect to a matter is a prospective client.
(b) Even when no client-lawyer relationship ensues, a lawyer who has learned
information from a prospective client shall not use or reveal that information,
except as Rule 1.9 would permit with respect to information of a former client.
(c) A lawyer subject to paragraph (b) shall not represent a client with interests
materially adverse to those of a prospective client in the same or a substantially
related matter if the lawyer received information from the prospective client that
could be significantly harmful to that person in the matter, except as provided in
paragraph (d). If a lawyer is disqualified from representation under this paragraph,
no lawyer in a firm with which that lawyer is associated may knowingly
undertake or continue representation in such a matter, except as provided in
paragraph (d).” (emphasis added after)

21

Counsel Clark knew he could not prevail against this petitioner’s motion to
22
23

remove him, and in order to avoid a dismissal issued by the Court, he gave Reed the

24

case on which she already had the benefit of knowing about petitioner’s confidential

25

information. Petitioner had pointed out to the court that counsel’s failure to

26

disclose their previous, concurrent working relationship on this case, suggests a
27
28

certain consciousness of guilt.

PETITION FOR WRIT OF CERTIORARI
Page | 26

1
2

The petitioner also pointed out to the Trial Court that, “Reed’s work for Clark
centers around the exact confidential communication previously transmitted to

3
4

Clark. How can Reed perform the work assigned to her without having been

5

provided with the specific facts, details and contentions of the parties’ community

6

and/or separate property issues, including their respective positions; positions

7

which Clark could have only learned about through the confidential information
8
9

petitioner provided. It would be naive to believe that Clark did not give Reed some

10

insight into his thinking, which would surely have included the confidential

li

information that was already on his mind. Clark gave Reed specific direction for

12

her area of research to be done. Attorney Reed performed what might be viewed as
13
14

fairly sophisticated work, maintained copious notes and performed considerable

15

research before propounding carefully targeted and exacting discovery upon

16

petitioner, using details that Reed could have only obtained from her predecessor

17
18
19
20

Clark, who had the benefit of petitioner’s prior “privileged communications,” in spite
of her stating she was only an expert witness. (App-)
“ABA Rule 1.10 Imputation of Conflicts of Interest: General Rule

21

(a) While lawyers are associated in a firm, none of them shall knowingly
22
23
24
25

represent a client when any one of them practicing alone would be prohibited
from doing so by Rules 1.7 or 1.9”
Under ABA Model Rule 1.18(a)-(c), it explains that the possibility of conflicts

26

must be considered before representation is actually undertaken because
27
28

discussions about substantially related matters may lead to conflict problems.

PETITION FOR WRIT OF CERTIORARI
Page | 27

1
2

If the lawyer obtains too much information from a prior arrangement, that
information may be used to conflict out both the lawyer, his firm and those lawyers

3
4
5
6

associated with the firm, especially those who have actually worked on the same
case in close proximity as to time, i.e. Reed.
If an attorney represents a current client against a former client, the attorney

7

will be subject to disqualification if there is a substantial relationship between the
8
9

two representations. (Flatt v. Superior Court (1994) 9 Cal.4th 275, 283.)

10

Under the Substantial Relationship Test, a court may disqualify Counsel

li

when the subject matter of a case bears a “substantial relationship” to a matter in

12

which Counsel previously advised or represented the presently adverse party. This
13
14

test was enunciated in T.C. Theatre Corp. v. Warner Bros. Pictures. 113F.

15

Sum). 265. 268 (S.D.N.Y. 1953). When the substantial relationship exists, the

16

court will irrebuttably presume that the attorney received confidential information

17
18

relevant to the present case. See also People ex rel. Dept, of Corporations v.

19

SneeDee Oil Chanse Systems. Inc.. 20 Cal. 4th 1135. Here, the substantial

20

relationship test is more than satisfied. Clark and Reed worked on the same

21

identical case.”
22
23
24
25

Following the Order of Affirmance, petitioner filed his petition for rehearing
with the appellate court on May 19, 2020. The appellate court responded with an
Order granting rehearing in part, denying in part, and affirming, in which the

26
27
28

portion of petitioner’s rehearing petition pertaining to the discussion supra, was
simply denied. (App- 165,178)

PETITION FOR WRIT OF CERTIORARI
Page | 28

1
2

As was the subsequent petition for review by the Supreme Court. (App- 181)
Therefore, question 2, what then is the abuse of discretion standard used for

3
4

review, where the appellate court ignores its own well-established directions and

5

guidelines regarding rules of professional conduct, and where a district court judge’s

6

impartiality might reasonably be questioned where the trial court deliberately

7

ignores a wholly briefed and crucial judicial misconduct matter, where counsels are
8
9

more likely to obfuscate court with fraud than enlighten the court?

10

With the level of experience had by Clark and Reed, this is something that

li

could have only been purposely omitted, as Reed had stated she did not have to tell

12

anyone. (App- 87) They knew or should have known as seasoned attorneys that
13
14

NO Court would sit still and let such a blatant fraud upon the Court and the

15

Judicial System stand. It most certainly allowed Reed to have irreparable and

16

unfair advantage over this petitioner.

17
18

Reed had perpetrated a fraud upon the Court that succeeded for over a year,

19

with little regard for a Court’s want of integrity. Reed’s actions affect the

20

substantial rights of the petitioner and flies in the face of the plain-error rule, even

21

if that error had not been brought to the district court’s attention, such as discussed
22
23

in Marcus.

24

It would be unprofessional for me to say that the above unaccountability is

25

exactly what allows Reed and Clark to smile all the way to the bank and even at

26
27
28

this reading, to smirk, but then, I’m not of Clark’s caliber, nor do I ever hope to
reach Reed’s level of unprofessionalism.

PETITION FOR WRIT OF CERTIORARI
Page | 29

r

a

1
2

C. Discussion as to question three:
On September 14, 2018, Budde filed a Report of Administration (Report)

3
4

(App- 7), with affirmations and attached exhibits (App- 71-83). Petitioner

5

unknowingly, filed what became a most unique and timely 19-page objection on

6

September 25, 2018. (App- 28)

7

Petitioner’s objections covered several pertinent areas, but most of all, the
8
9
10
li

issue of attorney conflict of interest, unfair advantage and fraud upon the court and
sought to stay the entire proceeding until all the issues could be worked out.
In spite of petitioner’s timely 19-page objection and 5-attached exhibits, the trial

12

court did not address any of petitioner’s objections to the Report, but merely stated
13
14

in its Order of findings and conclusion, prepared by Reed, “The Report of

15

Administration and the Estate Accounting is settled, allowed, confirmed, and

16

approved in its entirety over Mr. Ford’s objection.”

17
18
19
20

Ford appealed, citing an abuse of discretion by the trial court judge because
all the evidence presented was not properly reviewed and considered. The court
acknowledged this fact in “THE TRANSCRIPT OF PROCEEDINGS, HEARING ON

21
22

MOTIONS, November 9, 2018, Reno, Nevada, (Ruling of the Court Transcribed

23

Separately)”, (App- 141) , wherein the Court acknowledges the filing of the Report

24

at page 3-4:18-1, and goes on to state at page 4:2-3, “I did not see an objection

25

filed. Did vou file an objection. Sir?” (Emphasis added after), The petitioner

26
27
28

went on to state at page 4:4, “Yes, we did.” Budde’s counsel Reed than confirmed
the petitioner’s reply and objection filing, at page 5:13-15. (App- 141)
PETITION FOR WRIT OF CERTIORARI
Page I 30

l
2

Ruling of the Court is contained within a separate transcript.)” and goes on to say,
“(This portion of the proceedings concluded at 10:13 a.m.)” (App- 146)

3
4

Second, we have the ruling of the court, re: hearing on the motions. While the

5

cover page is dated November 12, 2018, the ruling actually took place on, FRIDAY,

6

November 9, 2018, RENO, NEVADA, 10:14 A.M, as shown at page 3:1 of the

7

“TRANSCRIPT OF PROCEEDINGS, RULING OF THE COURT, RE: HEARING
8
9

ON MOTIONS. (App- 148) As one can clearly see, the transcripts were clearly

10

misconstrued, the hearing began and then ended with the court’s ruling and with

li

Ford’s Objections to the “REPORT OF ADMINISTRATION” of the estate having

12

never been given its due consideration. The fact that the Appeal’s Order states at
13
14

page 3, “the judge stated that she had spent quite a bit time reviewing everything in

15

the case and that the report and accounting were approved over Ford’s objection”,

16

defies logic and makes no sense at all.

17
18
19
20
21
22
23
24
25

The Petitioner filed his petition for rehearing and the appellate court
reiterated its denial by stating,
2. “On appeal. Ford faults the court for stating at the hearing on Budde’s
petitions that it had not seen an objection filed. Based upon that statement
and the fact that the district court’s order does not specifically address his
objection, or the arguments contained therein, he asserts that the district
court did not properly review all of the evidence presented. But the relevant
transcripts and the court’s order indicate otherwise. While the district court
judge did initially state that she did not see Ford’s objection, the court
subsequently corrected that statement after questioning from Budde’s
counsel, noting that she did, in fact, have the objection.” (App- 179-180)

26

27
28

3. “Under these circumstances, Ford’s assertions that his objection was not
considered are unfounded, and his argument in this regard lacks merit.
Accordingly, we affirm the district court’s resolution of Budde’s petitions.”

PETITION FOR WRIT OF CERTIORARI
Page | 32

1
2

In spite of the reviewing court’s efforts, there was no subsequent correction of
the record by questioning Budde’s counsel. There was no questioning of Budde’s

3
4
5
6

counsel after Budde’s counsel confirmed that there was in fact an objection filed.
While the appellate court stated in its August 24, 2020 ruling, “Moreover, the
district court judge correctly noted that Ford’s objection only related to certain parts

7

of the petition, which demonstrates that the court reviewed it.”
8
9

But this does not demonstrate that the district court reviewed the objections,

10

for several reasons, as the court made several comments, and had to be directed to

li

the almost 20-page objection that addressed the shock at the misconduct and open

12

conflict of interest that was so brazen on the attorneys part. The reasons in part:
13
14

1.) The court utilized 9-lines to fully identify the Report as being “filed and duly

15

noticed” and then the court stated. “I did not see an objection filed”.

16

2.) The district court than asked, “Did you file an objection, sir?”

17
18

3.) Petitioner said yes.

19

4.) Budde’s counsel then stated, “I just want to make sure that the record is

20

reflective that there was a reply and objection filed by Mr. Ford on 9/25/18.”

21

What is clearly demonstrated at this point, is that this is a discussion about
22
23

an upside-down document that was NOT seen prior to this point.

24

5.) The court said, “Right. I have it all.”

25

6.) The court next said, “His reply was only to certain parts.”

26
27
28

But, what is even more demonstrative of the objections not being seen, is that
while the court was confirming the existence of the objections, it makes no mention

PETITION FOR WRIT OF CERTIORARI
Page | 33

l
2

of the fact that the uniquely filed objections is the only document in the thousands
of pages of the record, that was erroneously filed upside down. (App- 28)

3
4
5
6
7

A document that is scanned filed upside down, is one that is rarely seen by
any court, and therefore quite noticeable and a topic of discussion unto itself.
The objections are very strange to look at, it is akin to a spinning top with its
file stamp mixed in with the upside-down words at the bottom of the page. It is

8
9

extremely odd and most noteworthy; in that it would be the first thing mentioned by

10

a judge during an open hearing where the document was being discussed. I would

11

venture to say that it would almost be insulting to the legal eye. Certainly, one

12

would expect the court to say something more realistic like, Right, I have it, this is
13
14

weird, the pages are filed upside down, instead of merely rushing to acknowledge it.

15

However, once the court saw the objections and read the title, she would have

16

seen that it was titled, Plaintiffs Reply and Objection to Pertinent Parts of

17
18
19
20
21

Defendant’s (1) Report, et al., but merely reciting the title, does not demonstrate
that the court reviewed it. (App- 143,144)
Had the court reviewed the objections, she would have noticed that it centered
on attorney conflict of interest and misconduct between attorney Clark and Reed.

22
23
24
25

Those were the pertinent parts. Again, a district court abuses its discretion when it
resolves the matter in a manner “that is against logic and the facts on record.”
Petitioner’s motion for relief under NRCP 59 and 60, were centered on

26

appellant’s objections to the Report and what was learned from the report.
27
28

Petitioner’s subsequent motion to relieve and sanction counsel was most certainly

PETITION FOR WRIT OF CERTIORARI
Page | 34

1
2

centered on the same petitioner’s objections to the Report and what was learned
from the report.

3
4

The reviewing appellate court, instead of trying to read into record something

5

that is not there, should go back to where the district court said, “I did not see an

6

objection filed. Did you file an objection, sir?” This should be controlling, with the

7

evidence and the reasonable inferences which may be drawn therefrom, being
8
9

viewed in the light most favorable to the appellant. (See Hahn v. Presort

10

Physicians’ Service. 9th Cir., 868 F.2d 1022 (1988); Lansaeer v. Lake Havasu

li

Community Hosn.. 9th Cir. 688 F.2d 664 (1982) Winebers v. Park. 9th Cir., 321

12

F.2d 214 (1963); Kingston v. McGrath. 9th Cir., 232 F.2d 495 (1956)
13
14
15
16

Therefore, question 3. what is the abuse of discretion standard used for
review, where the appellate court ignores its own well established directions and
guidelines regarding the trial court which rendered its decisions based upon facts

17
18
19
20

that were not supported by the record and the subsequent decision resulted in plain
error, of the kind that a reviewing court supposedly and normally seeks to avoid?
As in United States v. Atkinson. 297 U.S. 157 (1936). The court of appeals

21

should correct a plain forfeited error affecting substantial rights if the error
22
23

"seriously affect[s] the fairness, integrity or public reputation of judicial

24

proceedings." Id., at 160.

25

This is not simply a petition for a writ of certiorari based upon erroneous

26
27
28

factual findings or the misapplication of a properly stated rule of law, but rather
this may indeed be a case of first impression wherein the state’s court of appeal,

PETITION FOR WRIT OF CERTIORARI
Page | 35

l
2

inserted incorrect triggering date into its decision, a false date that was not used by
;his petitioner in any of it September 2018 law and motions, which the results

3
4

prompted the appeal or presented by the petitioner in his opening appellate brief,

5

and then appellate court used that incorrect date and inserted it into their findings,

6

as the foundation and guide for their decision. The error is so serious, given that

7

the application of the date in question, is so pivotal and dispositive to petitioner’s

8
9

case, as to warrant nothing less than ordering this case back to the lower tribunal

10

for correction or “reversed and remanded.” (See Piano, Marcus and Bonnell,

11

Sup a)

12

Under the Due Process Clause, the U.S. Constitution says in the Fifth and
13
14

Fourteenth Amendments, to the federal and state governments, as a legal

15

obligation to all, that no one shall be deprived of property without due process.

16

CONCLUSION

17
18

The Court should grant the petition for certiorari.
Respectfully submitted,

19

/
20

7

21

Lawrence W, Ford
P.O. Box 358
Fairfield, CA 94533
(707) 365-3636 (Mess)
lawisnotblind@comcast.net
IN PRO SE

22
23
24
25
26
27
28

PETITION FOR WRIT OF CERTIORARI
Page I 36

